PEs
|

C@QCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-1088
DAVID CARSON,
as Parent and Next Friend of O. C., et al.,
Petitioners,
v.

A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PROFESSOR
MICHAEL W. MCCONNELL AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being

prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 7337 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 8th day of September, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

fe creas | GENERAL WOTARY-State of Nebraska Kepte. 0. Loot?
RENEE J. lee wears
My Comm. Exp. September 5, 2023

Qudiaw-h, Chile

Notary Public Affiant

41311
